SERVICE LIST
Attorney for Petitioner in No. 19-251
Derek L. Shaffer, Counsel of Record
Quinn Emanuel Urquhart & Sullivan, LLP
1300 I Street NW, Suite 900
Washington, DC 20005
derekshaffer@quinnemanuel.com
(202) 538-8000
Party name: Americans for Prosperity Foundation
*3 copies
Attorney for Respondent in No. 19-251 & No. 19-255
Aimee Athena Feinberg, Counsel of Record
California Department of Justice
1300 I Street
Sacramento, CA 95814
Aimee.Feinberg@doj.ca.gov
916-210-6003
Party name: Xavier Becerra, in his official capacity as the Attorney General of California
*3 copies
Attorney for Petitioner in No. 19-251 & No. 19-255
John J. Bursch, Counsel of Record
Alliance Defending Freedom
440 First Street NW
Suite 600
Washington, DC 20001
jbursch@adflegal.org
(616) 450-4235
Party name: Thomas More Law Center
*3 copies
Attorney for Amicus United States
Elizabeth Prelogar
Acting Solicitor General of the United States
U.S. Department of Justice
Room 5616
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
supremectbriefs@usdoj.gov
(202) 514-2217
*1 copy

